           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  ANALYSIS OF MULTIPLE, UNRELATED
         TITLE II PAYMENTS
     TO THE SAME BANK ACCOUNT

    March 2003    A-15-01-11033




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                    SOCIAL SECURITY

MEMORANDUM

Date:   March 3, 2003                                                                   Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Analysis of Multiple, Unrelated Title II Payments to the Same Bank Account
        (A-15-01-11033)


        OBJECTIVE
        Our objective was to develop a process the Social Security Administration (SSA) could
        use to identify fraudulent title II benefit payments. We also evaluated issues that arose
        during our audit that related to nursing homes directly receiving benefit payments and
        lack of cross-referencing of spousal accounts.

        BACKGROUND

        Title II programs provide a comprehensive package of protection against the loss of
        income due to retirement, disability, or death. SSA maintains a Master Beneficiary
        Record (MBR) to administer title II benefit payments. The MBR includes information,
        such as the beneficiary’s name, Social Security number (SSN), address, payment
        information, and bank account information. In Fiscal Year (FY) 2001, SSA paid
        approximately $402 billion to 45 million title II beneficiaries.

        On August 17, 1988, we issued a report, Identifying Unauthorized Multiple Payments to
        the Same Person at the Same Address (A-04-87-03001). That report identified ways to
        improve SSA’s Master File Duplicate Detection Operation (MAFDUP) to identify multiple
        check payments going to the same mailing address. MAFDUP served as a control to
        help detect fraud in SSA’s programs.

        SSA’s programs have experienced considerable growth in electronic payment delivery
        since we completed the 1988 audit. In FY 2001, 79 percent of all title II benefit
        payments were being made through direct deposit. To assist SSA in its efforts to
        combat fraud, we initiated this audit to identify multiple payments going to the same
        bank account, rather than a mailing address, as MAFDUP identified.
Page 2 - The Commissioner

SCOPE AND METHODOLOGY
To accomplish our objective, we used computer assisted auditing techniques (CAATs)
to query the MBR to obtain a list of multiple benefit payments going to the same bank
account in April 2001. Using CAATs, we identified and excluded bank accounts with
multiple benefit payments if there was identifying information on the MBRs indicating
known relationships, such as spouses, financial institutions, representative payees
(Rep Payee), and communal accounts (for example, religious orders).

We then used CAATs to identify all instances of three or more title II beneficiaries’
payments being direct deposited to the same bank account. We filtered the data to
eliminate bank accounts where one of these conditions existed. After filtering the data,
we identified a population of 34,496 MBRs with benefit payments being deposited into
5,542 bank accounts. We selected the 10 bank accounts with the largest number of
title II benefit payments and 100 other randomly selected bank accounts to analyze. To
ensure a broad coverage of the accounts, we stratified the 110 bank accounts into
6 groupings.

                                     Table 1: Sample Groupings

                                  Monthly                    Sample Bank
                             Benefits Deposited            Accounts Audited
                             Per Bank Account
                              183 and above                        101
                                 50 to 182                         10
                                  20 to 49                         10
                                  11 to 19                         15
                                   5 to 10                         25
                                    3&4                            40
                                    Total                          110

We analyzed the sample of SSA’s MBR and NUMIDENT records (SSA’s records of
applications for SSNs) to determine why multiple payments were being made to the
same bank account. When we were unable to determine a relationship among
payments by reviewing SSA’s records, we contacted the banks to determine the
ownership of the account (nursing home, trust account, individual, etc.)

We performed audit work at SSA Headquarters in Baltimore, Maryland. We also
performed audit work at nursing homes in Long Beach and the Bronx, New York;
East Orange, New Jersey; Union City and Reseda, California; and Cornwall,
Elizabethville, and Warrington, Pennsylvania. We performed field work from March
2001 to April 2002. We conducted our audit in accordance with generally accepted
government auditing standards.


1
    In one instance, the same nursing home had two bank accounts within this grouping.
Page 3 - The Commissioner

RESULTS OF REVIEW
Our analysis of the 110 bank accounts did not identify any instances of potential fraud
that would warrant further investigation. We found that the bank accounts were owned
by either nursing homes/care facilities, family units, trust funds, other financial
institutions or previously unidentified communal accounts.

While our CAATs testing did not identify any fraudulent cases, two other issues came to
our attention during the audit that we believe are important and should be brought to
SSA’s attention.

•     Nursing homes were directly receiving beneficiaries’ title II payments but were not
      the Rep Payees for these beneficiaries. Because the nursing homes were not the
      official Rep Payees for the beneficiaries, they were not being held accountable for
      the use of those benefits payments.

•     We found numerous MBRs that were not cross-referenced to show spousal
      relationships. In two cases, beneficiaries were underpaid because they were
      entitled to higher benefits on their spouses’ MBRs.

Nursing Homes Were Not Held Accountable for Title II Benefits

We have identified Rep Payees as 1 of the 10 significant issues facing SSA
management. The Social Security Act (Act)2 provides for beneficiaries to be appointed
a Rep Payee, regardless of legal competency or incompetency, if it is in the
beneficiary’s interest. The Act requires SSA to investigate Rep Payees before they are
appointed. In addition, the SSA Program Operations Manual System (POMS),
§ GN 00502.020 (5), requires reevaluation of capability whenever there is an allegation
or indication that a capable beneficiary may have become incapable (including
admission to a mental hospital or nursing home). SSA leaves the issue of capability to
the judgment of the claims representative/service representative. POMS,
§ GN 00502.020, provides two key questions as guidance in assessing capability:

      •   Does the individual have difficulty answering questions, securing evidence or
          understanding explanations and reporting instructions?
      •   If so, do you think this difficulty indicates the beneficiary cannot manage or direct
          the management of funds?

SSA is supposed to appoint a Rep Payee whenever it determines a beneficiary is
incapable.

Of the 110 bank accounts we reviewed, 45 belonged to nursing homes. The nursing
homes were not shown as being the Rep Payee on any of the beneficiaries’ MBRs we
reviewed. We selected 9 of the 45 nursing homes to visit to (1) gather information

2
    The Act § 205(j), 42 U.S.C. § 405(j).
Page 4 - The Commissioner

pertaining to the beneficiaries’ capability and (2) determine whether the nursing homes
were maintaining accurate records of the receipts and uses of the beneficiaries’ funds.
The nine nursing homes we selected are in three SSA regions.

Eight of the nine nursing homes were recorded as being the Rep Payee for other SSA
beneficiaries not covered by our audit. The ninth nursing home was not a Rep Payee
for any beneficiaries. SSA’s Representative Payee System (RPS)3 showed the
9 nursing homes were Rep Payees for a total of 406 beneficiaries. However, we found
the 9 nursing homes were receiving benefit payments for an additional 1,497 SSA
beneficiaries, a ratio of 3.7 to 1, for which the homes were not the Rep Payee.

Table 2: Beneficiaries in Nursing Homes Visited


                                       Number of Beneficiaries

     Nursing Home              Nursing Home             Nursing Home Not
                                                                                       Selected for
     Location/SSA             Appointed as Rep          Appointed as Rep
                                                                                         Review
        Region                Payee (Per RPS)            Payee (Per Audit)

      Cornwall, PA/                    10                          8                          8
        Region III
     Warrington, PA/                   225                        39                         10
        Region III
    Elizabethville, PA/                 1                          5                          5
        Region III
    East Orange, NJ/                   116                        33                         12
         Region II
    Long Beach, NY/                    14                         182                        13
         Region II
        Bronx, NY/                     21                         448                        15
         Region II
        Bronx, NY/                     12                         184                        11
         Region II
       Reseda, CA/                      7                         400                        11
        Region IX
     Union City, CA/                    0                         198                        10
        Region IX
           Total                       406                      1,497                        95




3
 RPS contains information about Rep Payees for title II and title XVI payments. This includes current
and prior Rep Payees, Rep Payee applicants who are not selected and those who cannot or should not
be selected as Rep Payees.
Page 5 - The Commissioner

We selected 95 of the 1,497 beneficiaries for on-site analysis to evaluate the extent to
which the individuals appeared to be capable of managing their benefit payments
without the appointment of a Rep Payee. We selected all of the beneficiaries at a
nursing home if the CAATs identified the nursing home as receiving less than
10 beneficiaries’ payments. If the nursing home was receiving payments for more than
10 beneficiaries, we selected the beneficiaries in the order they appeared in the CAATs
listing and reviewed as many as we could during our 1-day visit at each nursing home.
We found 11 of the 95 beneficiaries had died between our initial selection of MBRs and
our visit to the nursing homes.

Of the 95 beneficiaries we selected for review, 34 beneficiaries or 35 percent of our
sample did not appear capable of managing their own funds. During our visits to the
nine nursing homes, we used a questionnaire (Appendix A) to conduct face-to-face
interviews with the beneficiaries that were lucid. We reviewed the beneficiaries’ medical
records for 24 of the 34 individuals because officials at the nursing homes informed us
the beneficiaries were not lucid enough for an interview. In all 24 of these instances,
the beneficiaries’ medical records supported the nursing home officials’ statements that
the beneficiary was not capable. The other 10 beneficiaries we interviewed were non-
responsive to basic questions. The remaining 50 living beneficiaries appeared to be
capable.

The nursing homes were acting as de facto Rep Payees for the 34 beneficiaries who
appeared incapable. Because the nursing homes were not the official Rep Payees for
the beneficiaries appearing incapable, the nursing homes were not subject to the same
financial oversight and reporting responsibilities required of Rep Payees. We examined
the nursing homes’ accounting records for all of the 95 beneficiaries in our sample to
ascertain whether the funds appeared to be properly used for the respective
beneficiaries.

While we did not identify any significant accounting issues in the nine nursing homes we
visited, SSA has found other organizational payees that have not properly performed
their Payee responsibilities. Most of these cases involved poor performance of duties,
such as reporting events timely, maintaining adequate accounting records, filing
accounting reports, and refunding overpayments. We believe that nursing homes that
serve as de facto Rep Payees represent an unknown risk relating to the potential
misuse and/or overpayment of benefits. SSA should address these issues to improve
its congressionally mandated oversight and monitoring responsibilities for Rep Payees.4

While SSA is responsible for ensuring Rep Payee compliance with SSA policies and
procedures through on-site reviews,5 based on our discussions with SSA regions, we

4
  The Act, § 205(j)(3)(A), 42 U.S.C. 405(j)(3)(A)
5
  Triennial reviews are required by Emergency Message EM-00072 located in POMS, AO 49905.00, for
fee-for-service Rep Payees, volume payees that have 100 or more beneficiaries, and individual payees
with 20 or more beneficiaries. The reviews are intended to ensure Rep Payee compliance through face-
to-face meetings and examination of a sample of beneficiaries’ records. Payees subject to the review are
identified using the RPS.
Page 6 - The Commissioner

determined the nursing homes in our sample were not reviewed. In some cases, this
could have been because the nursing homes were recorded on the RPS as the Rep
Payee for only a small number of beneficiaries.

Although POMS, § GN 00502.020 (5), requires capability determinations when SSA
becomes aware of a beneficiary’s entry to a nursing home, SSA is not always aware
when a beneficiary is admitted to a nursing home. If SSA is to deliver world-class
service to the customers it serves, in accordance with its mission, it needs to be able to
identify incapable beneficiaries and appoint Rep Payees for those individuals. SSA
could then perform its monitoring duties to ensure the Rep Payee/nursing homes are
taking proper care of the beneficiaries and maintaining an accounting of beneficiaries’
payments. Lastly, SSA should make official capability determinations for all the
beneficiaries in the nursing homes we visited. SSA could then appoint a Rep Payee
and hold the Rep Payees accountable for funds of those beneficiaries’ it finds
incapable.

Spouses Were Not Receiving the Correct Benefit

Several of the records in our sample pertained to individuals who were related but
whose MBRs were not cross-referenced. SSA’s general practice is to cross-reference
the SSNs for spousal accounts because of the possibility of dual entitlement
(entitlement as either a primary or dependent beneficiary). As part of our CAATs
testing, we looked for cross-references between the MBRs as indications of families,
which in turn would explain multiple benefits being deposited into the same bank
account. However, we determined during our manual review of the MBRs that SSA
field offices (FO) did not always cross-reference SSNs between spouses.

We found 34 of the 40 bank accounts in sample grouping number 6 (refer to Table 1),
with 3 or 4 deposits per bank account, were owned by related individuals but not
identified as such by SSA. The relationships were generally spouses, children and/or
siblings. This grouping contained 2,391, or 43 percent, of the 5,542 bank accounts in
our population of bank accounts receiving deposits from multiple beneficiaries. We
confirmed the relationships through analysis of MBR address data, individuals’
applications for SSNs, and claims development information taken during application for
benefits. We found that 19 of the 34 cases involved spouses that did not have their
MBRs cross-referenced. We did not identify family units in any of the other groupings.

During our analysis of the 19 sample MBRs that were not cross-referenced, we found
that 2 spouses of title II beneficiaries were not paid the full amount of benefits to which
they were entitled. SSA FO staff had failed to determine whether the beneficiaries were
entitled to a higher benefit as a spouse on their husband/wife’s accounts. We
requested that SSA confirm and calculate the additional benefits that could have been
paid to the beneficiaries had they received the benefits when first eligible.6 The

6
 Actual retroactive benefits would be less because of restrictions pertaining to retroactive awarding of
benefits.
Page 7 - The Commissioner

first beneficiary could have received an additional $19,059 over 9 years, and the
second beneficiary could have received an additional $2,454 over 2 years. In both
instances, beneficiaries were receiving benefits on their own accounts but were entitled
to higher benefits on their spouse’s account. The Act indicates that under certain
circumstances a spouse is entitled to one-half of the primary wage earners’ primary
insurance amount7 (PIA) unless he/she is entitled to an amount equal or higher under
his/her own account. In both cases we identified, the beneficiaries were entitled to
higher benefits as a spouse than as the primary wage earner on their own accounts.
During our audit, SSA was processing new spouses’ claims from the two beneficiaries
as a result of our inquiries.

During our review of claims data taken during the original application process for the
two spouses discussed above, we noted the beneficiaries informed the FO staff that
they were married. The marriage information was recorded in the identity screen.
However, we found no evidence that FOs acted on that information to determine
whether the beneficiaries were entitled to higher benefits on their spouses’ account.
The husband and wife’s accounts were not cross-referenced. Staff members in the
Office of Assistance and Insurance Program Quality informed us that cross-reference
account numbers are not required entries in the claims process. We also reviewed
POMS instructions for processing alerts that could be generated for missing or
inconsistent data in the identity screen. We found no alert would be generated if a
marriage was reported in the identity portion of the claim and no cross-reference SSN
was entered.

Additional beneficiaries may be underpaid in the future because their accounts are not
cross-referenced to their spouses’ account. The Act, §202, indicates that widows/
widowers could be entitled to as much as 100 percent of their spouses’ PIA, and
spouses are entitled to 50 percent of the PIA.8 Thus, while spouses may be receiving
benefits on their own account that are equal or greater than 50 percent of their spouses
PIA, they may be entitled to higher benefits as a widow/widower. Without cross-
referenced accounts, SSA may not realize the need to process a survivor’s claim when
a death notice is received. Widow/widowers who are not aware of their entitlement or
are incapable beneficiaries, such as those we found in the nursing homes, would not
know to contact SSA to initiate the survivor’s claim.

CONCLUSIONS AND RECOMMENDATIONS
While our testing of multiple payments to the same bank account did not reveal any
instances of fraudulent benefit payments, we identified two issues during our audit that
we believe warrant SSA’s immediate attention. First, SSA needs to be more proactive
in identifying beneficiaries in nursing homes that may not be capable of managing their
funds. Second, SSA needs to implement policies and procedures for identifying dually

7
  The Act § 202(b) and (c), 42 U.S.C. § 402 (b), and (c). Note: these sections require the reduction of
these benefits under certain circumstances.
8
  The Act § 202(e)(2)(D) and (f)(3)(D), 42 U.S.C. § 402(e)(2)(D) and (f)(3)(D). Also, see 20 C.F.R. §
404.338.
Page 8 - The Commissioner

entitled beneficiaries and ensuring the beneficiaries receive all the benefits they are
entitled.

We believe that for SSA to fulfill its Rep Payee monitoring and oversight responsibilities,
it is important for SSA to have a process in place that identifies beneficiaries who
require a Rep Payee to be appointed. Events such as entering a nursing home can be
an indicator of possible beneficiary incapability. We believe SSA should consider using
a CAATs tool, as we used for this audit, to identify beneficiaries benefit payments being
directly deposited into nursing homes’ bank accounts. The nursing homes could then
be contacted to determine the beneficiaries’ capability status.

In addition, we believe SSA should cross-reference all spousal accounts when the
information is available to ensure beneficiaries are receiving the highest appropriate
benefit payment. CAATs tools can also serve to identify situations where spousal
accounts are not cross-referenced.

We recommend that SSA:

1. Implement policies and procedures necessary for detecting nursing homes receiving
   beneficiary funds without being the Rep Payee. Afterward, SSA should make
   appropriate capability determinations so that Rep Payees can be appointed (as
   needed) and held accountable.

2. Perform official capability determinations for all of the beneficiaries in the nursing
   homes we visited.

3. Implement policies and procedures for identifying spousal beneficiaries that are not
   cross-referenced, determine whether they are due additional benefits and notify all
   such beneficiaries of the option to elect higher benefits.

4. Amend POMS to make cross-referencing of SSNs a required entry for married
   beneficiaries.

AGENCY COMMENTS
In response to our draft report, SSA generally agreed with our recommendations. For
recommendation 1 SSA is proposing an alternative to address the recommendation. In
addition, SSA provided other comments relating to: i) the need for further review to
determine if an assignment of benefits has occurred in violation of section 207 of the
Act; ii) underpayments resulting from field office employees failure to pursue all
payments at the time of application; and iii) concerns about the appropriateness of the
questionnaire used. The full text of SSA’s comments are found at Appendix C.
Page 9 - The Commissioner

OIG RESPONSE
With respect to recommendation 1, we agree that SSA should look into alternatives to
address the recommendation. However, SSA needs to develop a mechanism to identify
beneficiary funds going to nursing homes in which the nursing home is not the
representative for individual beneficiaries.

With respect to recommendation 2, we do not agree that SSA should make capability
determinations only for those individuals randomly selected in a sample. We have
changed our report so that it is consistent in saying that all beneficiaries in the nursing
homes we visited should have capability determinations.

With respect to SSA’s “Other Comments” section, we respond:

   We agree SSA should perform additional investigative work to determine if there has
    been a violation of section 207.

   Lastly, SSA commented about the appropriateness of the OIG questionnaire. Our
    intention was only to perform an informal capability determination and not to go into
    the same detail that a formal SSA capability determination would require.




                                              James G. Huse, Jr.
                                       Appendices
APPENDIX A - Office of the Inspector General Questionnaire for Determining
             Beneficiary Capability

APPENDIX B - Acronyms

APPENDIX C - Agency Comments

APPENDIX D - OIG Contacts and Staff Acknowledgements
                                                                     Appendix A
Office of the Inspector General Questionnaire
for Determining Beneficiary Capability
We explained that the beneficiaries’ cooperation was voluntary, and they did not have to
answer our questions. We also explained that we were performing an audit of the
nursing home’s records because the beneficiary’s payments were being deposited in
the nursing home’s bank account. We asked the beneficiary the following questions
(Office of Management and Budget approval number 0960-0630).

   •   Are you satisfied with the living arrangements provided by the Rep Payee?

   •   Are you satisfied with the clothing and personal items provided by the Rep
       Payee?

   •   Are you satisfied with the food provided by the Rep Payee?

   •   Does the Rep Payee pay your bills in a timely manner?

   •   Does the Rep Payee let you know how much money he/she has saved for you?
                                                        Appendix B
Acronyms
Act         The Social Security Act
CAATs       Computer Assisted Auditing Techniques
FO          Field Office
FY          Fiscal Year
MAFDUP      Master File Duplicate Detection Operation
MBR         Master Beneficiary Record
PIA         Primary Insurance Amount
POMS        Program Operations Manual System
Rep Payee   Representative Payee
RPS         Representative Payee System
SSA         Social Security Administration
SSN         Social Security Number
                  Appendix C
Agency Comments
                                           SOCIAL SECURITY


MEMORANDUM                                                                           31094-24-752


Date:      January 16, 2003                                                          Refer To: S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry W. Dye     /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Analysis of Multiple, Unrelated Title II
           Payments to the Same Bank Account” (A-15-01-11033)—INFORMATION


           We appreciate OIG's efforts in conducting this review. Our comments on the report content and
           recommendations are attached.

           Please let us know if we can be of further assistance. Staff questions can be referred to
           Trudy Williams on extension 50380.

           Attachment:
           SSA Response




                                                            C-1
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE
OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT, “ANALYSIS
OF MULTIPLE, UNRELATED TITLE II PAYMENTS TO THE SAME BANK
ACCOUNT” (A-15-01-11033)


Thank you for the opportunity to review and comment on the subject draft report. As requested,
below are our comments.


Recommendation 1

SSA should implement policies and procedures necessary for detecting nursing homes receiving
beneficiary funds without being the Rep Payee. Afterward, SSA should make appropriate
capability determinations so that Rep Payees can be appointed (as needed) and held accountable.

Comment

While we agree with the general thrust of this proposal, we believe further study is needed before
committing resources to developing policies and procedures to this effort. Specifically, we
believe we should look to whether a change of direct deposit to a facility’s bank account is an
indication that capability development is needed.

We will explore the feasibility of sending a “Dear Colleague” letter to nursing homes of record,
concerning beneficiary capability and explaining the representative payee program.

The report does not acknowledge that the beneficiaries may have been capable at the time of
admittance to the nursing home and, over time, became incapable. In such cases, the field office
may have investigated the initial change of address to a nursing home, found the person capable
and continued to issue the check in the beneficiary’s name.


Recommendation 2

SSA should perform official capability determinations for all of the beneficiaries in the nursing
homes we visited.


Comment

We agree that the informal capability determination conducted as part of this review may be an
indication of the need for a formal capability review. We agree to do capability determinations
for all 34 beneficiaries identified in the review that appeared to be incapable. However, it should
be noted that recommendation 2 as stated on page 9 in the report, “Perform official capability
determinations for all of the beneficiaries in the nursing homes we visited.” is not consistent with
the recommendation stated at the top of page 7, “Lastly, SSA should make official capability


                                                C-2
determinations for the 34 beneficiaries in our sample that appeared to be incapable so Rep
Payees can be appointed, where necessary.”

Recommendation 3

SSA should implement policies and procedures for identifying spousal beneficiaries that are not
cross-referenced, determine whether they are due additional benefits and notify all such
beneficiaries of the option to elect higher benefits.

Comment

We agree. SSA has been exploring automated methods to ensure we detect situations where a
title II beneficiary or Supplemental Security Income (SSI) recipient become eligible for some
other benefit, including spouse's and divorced spouse's benefits.

Recommendation 4

SSA should amend the POMS to make cross-referencing of SSNs a required entry for married
beneficiaries.

Comment

We agree. As previously stated in response to recommendation three, SSA has been exploring
automated methods to ensure we detect situations where a title II beneficiary or SSI recipient
become eligible for some other benefit, including spouse's and divorced spouse's benefits.

Other Comments

On page 3 of the report, under the heading, “RESULTS OF REVIEW” paragraph 1, sentence 1,
states that 110 bank accounts did not have any indication of fraud that would warrant further
investigation. The reason given was the accounts were owned by the facility. An additional
review of these accounts should be done. Section 207 of the Act prohibits assigning benefits. It
appears, without further narrative, that these accounts do not show proper ownership of funds
and may be in violation of section 207. If an investigation of account titles is warranted, it is
SSA’s responsibility to investigate.

There were two cases cited where substantial underpayments were found. The report infers that
the overpayment occurred because the MBRs were not cross-referenced. However, the reason
for the overpayment was the failure of the FO to pursue all payments to which the individual was
entitled at the time the initial claims were adjudicated.

In the report at Appendix A: The questionnaire used by the auditors to conduct the informal
capability determination was not appropriate. The term “rep payee” is used throughout the
questionnaire, as though the beneficiary already had a payee. We believe this may have been
confusing to the beneficiary and affected the results. Further, the questionnaire seems to focus
more on payee suitability than beneficiary capability.


                                               C-3
                                                                       Appendix D
OIG Contacts and Staff Acknowledgments
OIG Contacts


   Fredrick C. Nordhoff, Director Financial Audit Division (410) 965-6676
   Victoria Vetter, Audit Manager, Financial and Compliance Audits (410) 966-9081


Acknowledgments


In addition to those named above:

   Lance Chilcoat, Auditor
   Mark Meehan, Auditor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-15-01-11033.
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Management Analysis and Audit Program Support Staff, OFAM
Inspector General
Assistant Inspector General for Investigations
Assistant Inspector General for Executive Operations
Assistant Inspector General for Audit
Deputy Assistant Inspector General for Audit
 Director, Data Analysis and Technology Audit Division
 Director, Financial Audit Division
 Director, Southern Audit Division
 Director, Western Audit Division
 Director, Northern Audit Division
 Director, General Management Audit Division
Team Leaders
Income Maintenance Branch, Office of Management and Budget
Chairman, Committee on Ways and Means
Ranking Minority Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman, Subcommittee on Social Security
Ranking Minority Member, Subcommittee on Social Security
Majority Staff Director, Subcommittee on Social Security
Minority Staff Director, Subcommittee on Social Security
Chairman, Subcommittee on Human Resources
Ranking Minority Member, Subcommittee on Human Resources
Chairman, Committee on Budget, House of Representatives
Ranking Minority Member, Committee on Budget, House of Representatives
Chairman, Committee on Government Reform and Oversight
Ranking Minority Member, Committee on Government Reform and Oversight
Chairman, Committee on Governmental Affairs
Ranking Minority Member, Committee on Governmental Affairs
Chairman, Committee on Appropriations, House of Representatives
Ranking Minority Member, Committee on Appropriations,
 House of Representatives
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman, Committee on Appropriations, U.S. Senate
Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate
Chairman, Committee on Finance
Ranking Minority Member, Committee on Finance
Chairman, Subcommittee on Social Security and Family Policy
Ranking Minority Member, Subcommittee on Social Security and Family Policy
Chairman, Senate Special Committee on Aging
Ranking Minority Member, Senate Special Committee on Aging
President, National Council of Social Security Management Associations,
  Incorporated
Treasurer, National Council of Social Security Management Associations,
  Incorporated
Social Security Advisory Board
AFGE General Committee
President, Federal Managers Association
Regional Public Affairs Officer
                   Overview of the Office of the Inspector General


                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                              Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                  Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                            Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
